No.

SUPREME COURT OF THE UNITED STATES

JAMES ARTHUR ROSS - PETITIONER
VS.
BRIGITTE AMSBERRY, et al. - RESPONDENT(S)

PROOF OF SERVICE
I, James Arthur Ross, do swear or declare that on the 05th day of March, 2021, as required by
Supreme Court Rule 29,1 have served the enclosed: PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or to that Party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Supreme Court of the United States
Office of the Clerk
1 First Street NE
Washington, DC 20543-0001

Denise G. Fjordbeck
ODOJ - Appellate Division
1162 Court Street NE
Salem, Oregon 97301

I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 05"' day of March, 2021.

(Signature)

